NRC: OIG/98A-17 - Review of NRC Representation Funds
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1999
> OIG/98A-17
OIG/98A-17 - Review of NRC Representation Funds
MEMORANDUM TO:
Chairman Jackson
FROM:
Hubert T. Bell Inspector General
SUBJECT:
REVIEW OF NRC REPRESENTATION FUNDS
Attached is the Office of the Inspector General's (OIG) report titled "Review of NRC Representation Funds." This report reflects the results of OIG's audit of the agency's funds appropriated for official representation expenses. Based on our evaluation of fund transactions for FY 1998, we found that the fund is managed and operating in an acceptable manner in accordance with NRC Management Directive guidance.
On September 18, 1998, OIG held an exit conference and briefed agency management on our findings. Since this report does not contain recommendations, we did not provide a draft for agency comment.
Attachment: As stated
Attachment
Contents:
Report Synopsis
Introduction
Background
Findings
Conclusion
Appendices
I. Objective, Scope, and Methodology
II. Major Contributors to this Report
III. Glossary:   Office of the Inspector General Products
Investigative
Audit
Regulatory
Report Synopsis
The United States Congress first appropriated monies to the U.S. Nuclear Regulatory Commission (NRC) for Official Representation Funds (hereafter referred to as the "fund") in 1976. Congress annually appropriates monies to NRC for official representation expenses and establishes a dollar limit on the amount of these expenses. For fiscal year (FY) 1998, Congress appropriated official representation expenses in an amount not to exceed $20,000. For FY 1998, the fund has $38,000 available for use as a result of an $18,000 carryover from previous years.
Based on our evaluation of fund transactions for FY 1998, we found that: (1) the fund is managed and operating in an acceptable manner in accordance with NRC Management Directive guidance; (2) the Office of International Program's (OIP) files are complete, and access to and accountability of fund records and resources is limited to authorized NRC employees; (3) fund transactions and Government protocol functions are promptly and accurately recorded and classified; (4) NRC personnel acting within the scope of their authority authorize and execute fund transactions; and (5) key duties and responsibilities for authorizing, processing, recording, and reviewing fund transactions are properly separated among employees. Therefore, we made no recommendations.
We are aware that the Commission revised its internal procedures on June 30, 1998, to allow for allocation of funds to each Commissioner's office for representational expenses. As a result, the Chief Financial Officer (CFO) developed a plan to allocate funds to each Commissioner's office for FY's 1999-2000 into six separate portions: one to the Chairman, one for each of the four Commissioners (including the vacant Commissioner positions), and one for OIP. The CFO forwarded a proposal detailing this plan to the Commission where it is under review.
Introduction
The Office of the Inspector General (OIG) has completed a review of the U.S. Nuclear Regulatory Commission's (NRC) Official Representation Fund (hereafter referred to as the "fund"). We performed a review of the fund in 1990(1) and found that its administration had been efficient and effective. Also, NRC had implemented controls to protect the fund.
Our overall objectives for this review were to determine the propriety of fund expenditures and whether fund activities are conducted in compliance with the requirements of NRC Management Directive (MD) 5.4, titled "Official Representation Expenses." MD 5.4 provides policy, objectives, organizational responsibilities, delegations of authority, and internal controls for official representation expenses.
See Appendix I for more details about the objective, scope, and methodology
for this review.
Background
The United States Congress first appropriated monies to NRC for the fund in 1976. Congress annually appropriates monies to NRC for official representation expenses and establishes a dollar limit on the amount of these expenses. For fiscal year (FY) 1998, under Appropriations Legislation for Salaries and Expenses, Congress allowed official representation expenses not to exceed $20,000.(2) For FY 1998, the fund has $38,000 available for use as a result of an $18,000 carryover from several previous years.(3) The Director, Division of Budget and Analysis, Office of the Chief Financial Officer (OCFO), allots funds for official representation expenses each year upon passage into law of NRC's annual Appropriations Act and apportionment of these monies by the Office of Management and Budget.
NRC must use official representation funds principally in connection with international cooperation activities under the intent expressed by Congress. However, NRC may use these funds in connection with other activities on a very selective basis when circumstances dictate this use. NRC must use its funds only for selected Government protocol functions for which the NRC is the sponsor. The purpose of these functions is to accord proper honor and recognition to:   (1) foreign dignitaries visiting the NRC; (2) foreign dignitaries by NRC representatives during their official visits to foreign countries; (3) important officials of State and local governments in connection with their participation in special events, such as dedications, relevant to the NRC's mission; and (4) high-level domestic officials at special functions hosted by one or more NRC Commissioners.
According to MD 5.4, official representation functions generally consist of dinners, luncheons, cocktail parties, receptions, or similar affairs. NRC may consider these functions to be official representation only when:   (1) NRC sponsors the representation function as official business of the Commission; and (2) the attainment of NRC objectives is the underlying purpose.
The following is a typical flow of events for the use of the fund:
The Office of International Programs (OIP) has International Relations
Specialists who are assigned specific countries. OIP refers to these individuals
as Desk Officers. Normally, the Desk Officer informs (verbally or through
e-mail) either the Director, OIP, or his designee, in advance of an official
representation function.
The designee reviews the request for adequacy and compliance with MD 5.4,
completes a "Request for Administrative Services," NRC Form 30, and submits
the Form to the Director, OIP. The Director, OIP, will then authorize the
official representation function in advance.(4)
A funds certifying official within the Division of Budget and Analysis,
OCFO, certifies that funds are available in advance for expenses up to $500.
If expenses exceed $500, a higher-level certifying official within OCFO
must also approve the request.
OCFO processes the request, certifies that funds are available, and returns
Form 30 to OIP. Funds are then obligated.
The OIP designee receives the approved amount of cash from the Imprest
Fund Cashier.
The OIP designee is generally responsible for coordinating and setting
up functions, payment of fund expenses, and collecting original itemized
receipts for OIP to attach to the close-out documentation "Public Voucher
for Purchases and Services Other Than Personal," Standard Form (SF) 1034.
OIP prepares the SF-1034 for payment of expenses and submits the original
documentation to the Cashier in the Travel Services Section. If there are
excess funds, these are also returned to the Cashier with the appropriate
documentation.
Findings
We found that OIP manages NRC representation activities efficiently and effectively and in accordance with controls established in MD 5.4. OIP ensures that fund activities are properly authorized and that expenses are monitored and controlled. Specifically, we found that:
Fund resources have been used exclusively for appropriate Government protocol
functions for which the NRC is the sponsor.
OIP's files were complete and were readily available for OIG's examination.
Also, access to and accountability of fund records and resources was limited
to authorized NRC employees only.
Fund transactions and Government protocol functions were promptly and accurately
recorded and classified (e.g., dinners, luncheons, signings, receptions,
purchase of mementos, etc.).
Appropriate NRC personnel, acting within the scope of their authority,
executed and authorized fund transactions.
NRC properly separated key duties and responsibilities for authorizing,
processing, recording, and reviewing fund transactions among employees as
stated in MD 5.4. Adequate supervision was in place to ensure that internal
control objectives were achieved.
We also found that NRC is changing the manner in which it allocates funds for representational expenses. On June 30, 1998, the Commission revised its internal procedures(5) to allocate funds to each Commissioner's office for representational expenses. Under the new procedures, each Commissioner's office will track their individual expenditures. As a result, the Chief Financial Officer (CFO) developed a plan to allocate funds to the Commissioner's offices for FY's 1999-2000 into six separate portions: one to the Chairman, one for each of the four Commissioners (including the vacant Commissioner positions), and one for OIP. The OIP allocation would cover: (1) representation activities sponsored by the staff; (2) procurement of mementos for use by the Chairman, Commissioners, and staff; and (3) the annual recurring representation expenses for the International Atomic Energy Agency general conference.
Although this situation may have some effect on existing controls, the CFO is cognizant of this and will work with OIP to monitor the situation to determine if changes are necessary. The CFO forwarded a proposal detailing this plan to the Commission where it is under review.
Conclusion
Our evaluation of fund transactions and Government protocol functions for
FY 1998, found that the fund is managed and operating in an acceptable manner
in accordance with NRC Management Directive guidance. As a result of our review,
we are making no recommendations.
Appendices
I. Objective, Scope, and Methodology
The overall objectives of our review were to determine the propriety of the U.S. Nuclear Regulatory Commission's (NRC) Official Representation Fund (the "fund") expenditures and whether the fund is operating in compliance with the requirements of NRC Management Directive (MD) 5.4, titled "Official Representation Expenses." In order to review the fiscal year (FY) 1998 fund information, the Office of the Inspector General (OIG) developed a criteria checklist by focusing on the following guidance from MD 5.4:   (1) approval and authorization of official representation expenses; (2) criteria under which expenses may be charged; and (3) documentation of expenses. OIG then reviewed information for each of the sixty transaction files for FY 1998 to date.
Additionally, we wanted to ensure that all appropriate documentation was in the files and that any unused representation funds were accounted for and returned promptly to the Office of the Chief Financial Officer (OCFO). We also interviewed Office of International Programs (OIP) and OCFO employees regarding the use of the fund, and reviewed OIP summary reports of all representation expenses incurred during FY 1998 to date. Our evaluation was conducted in August and September 1998, in accordance with generally accepted Government auditing standards.
II. Major Contributors to this Report
Anthony C. Lipuma Team Leader
Michael J. Steinberg Auditor
III. Glossary:   Office of the Inspector General Products
Investigative
1.INVESTIGATIVE REPORT - WHITE COVER
An Investigative Report documents pertinent facts of a case and describes available evidence relevant to allegations against individuals, including aspects of an allegation not substantiated. Investigative reports do not recommend disciplinary action against individual employees. Investigative reports are sensitive documents and contain information subject to the Privacy Act restrictions. Reports are given to officials and managers who have a need to know in order to properly determine whether administrative action is warranted. The agency is expected to advise the OIG within 90 days of receiving the investigative report as to what disciplinary or other action has been taken in response to investigative report findings.
2.EVENT INQUIRY - GREEN COVER
The Event Inquiry is an investigative product that documents the examination of events or agency actions that do not focus specifically on individual misconduct. These reports identify institutional weaknesses that led to or allowed a problem to occur. The agency is requested to advise the OIG of managerial initiatives taken in response to issues identified in these reports but tracking its recommendations is not required.
3.MANAGEMENT IMPLICATIONS REPORT (MIR) - MEMORANDUM
MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate
correction of problems and to avoid similar issues in the future. Agency tracking
of recommendations is not required.
Audit
4.AUDIT REPORT - BLUE COVER
An Audit Report is the documentation of the review, recommendations, and findings resulting from an objective assessment of a program, function, or activity. Audits follow a defined procedure that allows for agency review and comment on draft audit reports. The audit results are also reported in the OIG's "Semiannual Report" to the Congress. Tracking of audit report recommendations and agency response is required.
5.SPECIAL EVALUATION REPORT - BURGUNDY COVER
A Special Evaluation Report documents the results of short-term, limited assessments.
It provides an initial, quick response to a question or issue, and data to determine
whether an in-depth independent audit should be planned. Agency tracking of
recommendations is not required.
Regulatory
6.REGULATORY COMMENTARY - BROWN COVER
Regulatory Commentary is the review of existing and proposed legislation, regulations, and policies so as to assist the agency in preventing and detecting fraud, waste, and abuse in programs and operations. Commentaries cite the IG Act as authority for the review, state the specific law, regulation or policy examined, pertinent background information considered and identifies OIG concerns, observations, and objections. Significant observations regarding action or inaction by the agency are reported in the OIG Semiannual Report to Congress. Each report indicates whether a response is required.
1. Review of the Use of and Controls Over the Nuclear Regulatory Commission's Official Representation Fund, July 12, 1990, OIG 90A-15.
2. Current Appropriations Bill before the House/Senate Conference Committee on Energy and Water Development provides $15,000 for NRC representation activities during FY 1999.
3. The Appropriations Legislation allows for funds to remain available until expended.
4. MD 5.4 provides that, although the advance planning usually
inherent in representation functions should complement procedures, emergency
cases arising from unforeseen circumstances may make it necessary to bypass
advance submission of Form 30.
5. COMSECY-98-005, dated June 30, 1998, on Internal Commission
Procedures.
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees